         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       EPA Should Improve Its
       Oversight of Federal Agency
       Superfund Reviews
       Report No. 10-P-0133

       June 2, 2010
Report Contributors:                           Carolyn Copper
                                               Steve Hanna
                                               Tapati Bhattacharyya
                                               Anne Emory
                                               Chad Kincheloe
                                               Kate Kimmel
                                               Brooke Shull




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS      Comprehensive Environmental Response, Compensation, and Liability
             Information System
DOD          U.S. Department of Defense
DOE          U.S. Department of Energy
EPA          U.S. Environmental Protection Agency
FFA          Federal facility agreement
FFRRO        Federal Facilities Restoration and Reuse Office
GAO          U.S. Government Accountability Office
NPL          National Priority List
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OSWER        Office of Solid Waste and Emergency Response
OU           Operating unit
RPM          Remedial Project Manager
SMP          Site management plan
TCE          Trichloroethene
                      U.S. Environmental Protection Agency 	                                             10-P-0133
                                                                                                       June 2, 2010
                      Office of Inspector General


                      At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review              EPA Should Improve Its Oversight of 

Prior studies have identified       Federal Agency Superfund Reviews

weaknesses in the Superfund
                                     What We Found
5-year review process. We
evaluated how the U.S.              EPA does not have effective management controls to monitor the completion of
Environmental Protection
                                    Review recommendations at federal government Superfund sites. For Reviews
Agency (EPA) identifies and
                                    signed since 2006, 84 percent of Review recommendations were overdue as of
monitors issues and
                                    April 28, 2009. EPA regional staff do not consistently follow Superfund 5-year
recommendations in Reviews          review process guidance and policies for updating the status of Review issues
conducted at federal facility       and recommendations in the Comprehensive Environmental Response,
Superfund sites. We also
                                    Compensation, and Liability Information System (CERCLIS). Overdue or
examined how EPA achieves
                                    unimplemented recommendations to improve underperforming or
compliance with unimplemented
                                    nonperforming clean-up remedies may increase the risk to human health and
recommendations and
                                    the environment.
nonconcurrence issues.
Background                          Federal facilities are responsible for their own Reviews, and EPA states in a
                                    letter its concurrence or nonconcurrence with these Reviews. However, EPA’s
EPA’s Superfund 5-year review
                                    management of the concurrence process has resulted in some Reviews being
is a required process that
                                    conducted more than 5 years apart and some issues not being addressed. EPA
examines the clean-up remedies
                                    has no management controls or policy for communicating, following up on, or
at Superfund sites where
                                    resolving issues it does not agree with or it believes need improvement.
hazardous substances remain at
                                    Enforcement options are not clearly documented in EPA guidance or policy
levels that may pose unacceptable
                                    statements, and are not consistently understood or followed by staff.
risks. The Reviews are required
every 5 years. They determine
                                    We also identified data quality problems. Discrepancies in the presentation of
whether remedies adequately
                                    issues and recommendations exist between the Reviews and CERCLIS, some
protect human health and the
                                    data in CERCLIS are logically inconsistent, and recommendations from prior
environment. Federal facility
                                    Reviews are not always closed out.
Superfund sites (e.g., military
sites) complete their own
                                     What We Recommend
Reviews and submit them to
EPA. EPA is required to report
                                    We recommend that EPA implement improved management controls to
to Congress on these Reviews.
                                    monitor the completion of federal facility Review recommendations, ensure
For further information, contact
                                    Reviews are submitted every 5 years, improve the management of the
our Office of Congressional,        nonconcurrence process, clarify and describe enforcement options to achieve
Public Affairs and Management at    completion of recommendations, and improve data quality. EPA initially
(202) 566-2391.                     agreed with all recommendations, except for recommendation 3-1. After
                                    additional discussions, EPA agreed with all recommendations and proposed
To view the full report,
click on the following link:        actions to address them. All recommendations are open with agreed-to actions
www.epa.gov/oig/reports/2010/       pending. In its final response to this report, EPA should provide estimated or
20100602-10-P-0133.pdf.             actual completion dates for all recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           June 2, 2010

MEMORANDUM

SUBJECT:               EPA Should Improve Its Oversight of
                       Federal Agency Superfund Reviews
                       Report No. 10-P-0133


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Cynthia Giles
                       Assistant Administrator
                       Office of Enforcement and Compliance Assurance

                       Mathy Stanislaus
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $971,193.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response should include a corrective action plan for
agreed-upon actions, including actual or estimated milestone completion dates. We have no
objections to the further release of this report to the public.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Chad Kincheloe, Project Manager, at (312) 886-6530 or
kincheloe.chad@epa.gov.
EPA Should Improve Its Oversight of                                                                                         10-P-0133
Federal Agency Superfund Reviews




                                   Table of Contents 


Chapters 

   1	    Introduction ...........................................................................................................      1


                 Purpose ..........................................................................................................    1

                 Background ....................................................................................................       1

                 Noteworthy Achievements..............................................................................                 2

                 Scope and Methodology.................................................................................                3

                 Limitations ......................................................................................................    4

                 Prior Evaluation Coverage .............................................................................               5


   2	    EPA Needs a Management Control for Monitoring the Completion of Review

         Recommendations ................................................................................................              6


                 Entry of Review Data in CERCLIS is Required ..............................................                            6

                 Recommendations Are Not Monitored for Completion ...................................                                  7

                 Conclusions....................................................................................................       9

                 Recommendations .........................................................................................             9         

                 Agency Comments and OIG Evaluation.........................................................                          10 


   3	    EPA Needs Additional Oversight and Enforcement Guidance for Reviews....                                                      11


                 Lack of Controls and Guidance Impedes Compliance with Legal 

                     Requirements and Affects the Quality of Reviews ..................................                               11 

                 Guidance on Enforcement of Review Recommendations Needed ................                                            13 

                 Conclusions ....................................................................................................     15             

                 Recommendations .........................................................................................            15         

                 Agency Comments and OIG Evaluation.........................................................                          16 


   4	   CERCLIS Data Quality Problems Impede Accurate Documentation of 

        Issues and Recommendations.............................................................................                       17


                 Discrepancies Exist Between Information in Published Reviews 

                     and in CERCLIS ......................................................................................            17 

                 CERCLIS Data Quality Issues Affect EPA’s Ability to Monitor Reviews.........                                         18 

                 Conclusions ....................................................................................................     19             

                 Recommendations .........................................................................................            19             

                 Agency Comments and OIG Evaluation.........................................................                          19 


   Status of Recommendations and Potential Monetary Benefits.................................                                         21     

EPA Should Improve Its Oversight of                                                                                        10-P-0133
Federal Agency Superfund Reviews



Appendices 

   A     OSWER Response to OIG Draft Report and OIG Response .............................                                           23    


   B     Distribution ............................................................................................................   32

                                                                                     10-P-0133 





                                 Chapter 1

                                 Introduction
Purpose
          The purpose of this project was to evaluate the U.S. Environmental Protection
          Agency’s (EPA’s) oversight of 5-year reviews conducted at Superfund National
          Priority List (NPL) sites that are also federal facility sites. These Reviews assess
          the performance of clean-up remedies to ensure the remedies adequately protect
          human health and the environment. We addressed the following questions:

          1.	 How does EPA (Headquarters and regions) ensure that all federal facility
              issues and recommendations are identified and tracked?
          2.	 Are EPA’s actions to address unimplemented federal facility Review
              recommendations and nonconcurrence issues achieving federal facility
              compliance?

Background
          The Comprehensive Environmental Response, Compensation, and Liability Act
          (CERCLA, or Superfund) requires a review every 5 years at Superfund sites in
          which contaminants remain above levels that could pose unacceptable risks to
          human health and the environment. These reviews assess the performance of
          clean-up remedies to ensure the remedies protect human health and the
          environment. Reviews identify issues that affect current or future remedy
          protectiveness and may include recommendations to address issues for each
          operating unit (OU) at a site. Based on the issues identified, the protectiveness of
          each OU is characterized by one of five categories defined by EPA, listed in
          decreasing order of protectiveness:

             •	 Protective: Protective of human health and the environment.
             •	 Will be protective: Will be protective once the remedy is completed.
             •	 Protective in the short term: Protective in the short term; however, for
                the remedy to be protective in the long term, follow-up actions need to be
                taken.
             •	 Protectiveness deferred: Protectiveness cannot be determined until
                further information is obtained.
             •	 Not protective: Not protective unless specified actions are taken.

          EPA is required to report to Congress on the status of nonfederal and federal NPL
          site Reviews. In these reports, EPA defines the protectiveness of the site as not
          more protective than the least protective OU.



                                            1

                                                                                  10-P-0133 



         Federal facilities are defined as the “buildings, installations, structures, land,
         public works, equipment, aircraft, vessels, and other vehicles and property, owned
         by, or constructed or manufactured for the purpose of leasing to, the Federal
         government.” Federal facilities have the lead role and responsibility in the clean-
         up of their Superfund sites. In addition, federal facilities conduct their Superfund
         Reviews, prepare the Review reports, and submit their reports to the appropriate
         regional EPA office for review and comment. The federal facility is also
         responsible for ensuring that recommendations and follow-up actions identified
         during Reviews are completed. Federal agencies or departments fund Reviews at
         federal facilities.

         One of EPA’s primary roles in federal facility Reviews is providing oversight to
         determine whether federal facility decisions protect human health and the
         environment. Through a concurrence process, EPA regions determine whether
         Review decisions are adequately supported. In this process, EPA regions
         examine federal facility Reviews and prepare a letter that either indicates
         concurrence with the Review or provides independent findings. EPA regions
         should enter the issues and recommendations identified by the Review into the
         Comprehensive Environmental Response, Compensation, and Liability
         Information System (CERCLIS).

         As of April 2009, there were 172 federal
         facility NPL sites (Table 1-1). The U.S. 
    Table 1-1: Federal Facility NPL Sites
                                                            Federal       NPL Sites Percent
         Department of Energy (DOE) and U.S. 
              Agency
         Department of Defense (DOD) are the 
         DOD                  140          81.4
         two largest owners of federal facility
       DOE                   	21         12.2
         Superfund sites, which include nuclear 
      Other                 11           6.4
         weapons plants, military bases, and fuel 
    Total                172          100
                                                       Source: EPA.
         distribution stations. Examples of these
         sites are the DOE Hanford Nuclear Reservation and the DOD Rocky Mountain
         Arsenal. Federal facility Superfund sites may contain hazardous waste,
         unexploded ordnance, radioactive waste, or other toxic substances. According to
         EPA, federal facilities account for approximately one-half of the liability for
         Superfund clean-ups across the United States, including the largest single sites
         and sites with the widest varieties of contamination. Federal facility sites pose
         significant clean-up challenges. According to an EPA document, it may take up
         to 75 years and $400 billion to clean up federal facility Superfund sites.

Noteworthy Achievements
         In 2006:
             •	 EPA implemented CERCLIS modifications to facilitate the input and
                monitoring of Review data.
             •	 The Federal Facilities Restoration and Reuse Office (FFRRO) of the
                Office of Solid Waste and Emergency Response (OSWER) issued a
                memorandum to the Regional Superfund National Policy Managers. This



                                          2

                                                                                            10-P-0133


                            memorandum emphasized completion of the Reviews and follow-up of
                            recommendations as an office priority.

                    In 2007:
                        •	 OSWER issued a memorandum that identified Review program priorities,
                           including:
                               ¾ Improving the quality and consistency of Reviews.
                               ¾ Continuing to improve the timeliness of Reviews.
                               ¾ Tracking and implementing Review issues and recommendations.
                               ¾ Ensuring CERCLIS accurately reflects Review planning
                                  information, conclusions, and current progress on implementing
                                  recommendations.
                               ¾ Continuing to improve coordination between EPA Headquarters
                                  and regions.
                        •	 EPA conducted Superfund Program Reviews designed to increase
                           understanding of challenges with respect to 5-year reviews. These
                           reviews continued into 2008.

                    In 2009:
                        •	 In September 2009, OSWER issued a document titled Five-Year Reviews,
                           Frequently Asked Questions and Answers, to clarify EPA’s 2001
                           Comprehensive Five-Year Review Guidance.
                        •	 During the course of our evaluation, EPA regions updated CERCLIS
                           Review recommendations, reducing overdue recommendations from 84
                           percent to 39 percent.1

Scope and Methodology
                    We conducted our work from April 2009 to February 2010 in accordance with
                    generally accepted government auditing standards. Those standards require that
                    we plan and perform the evaluation to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based on our
                    objectives. We assessed EPA’s management controls for oversight of the
                    completion of Review recommendations for NPL federal facility sites. We
                    believe the evidence obtained provides a reasonable basis for our findings and
                    conclusions based upon our objectives.

                    We obtained and analyzed Review data for federal facility NPL sites from EPA’s
                    CERCLIS. Using CERCLIS, we identified the total number of sites and overdue
                    recommendations in 2006-2008 Reviews and selected the 5 EPA regions (Regions
                    3, 4, 8, 9, and 10) with the most federal facility NPL sites and overdue
                    recommendations.



1
    We did not verify the accuracy of this reduction in overdue recommendations.


                                                          3

                                                                                    10-P-0133


          To address Question 1, we requested information from and interviewed Remedial
          Project Managers (RPMs) and other staff involved in the Review process in the
          selected regions. We used this information and these interviews to identify the
          process by which recommendations are monitored, the reasons for overdue
          recommendations, and the reasons for discrepancies between Review and
          CERCLIS data. We interviewed regions based on the number of Review
          recommendations reported after 2006, focusing on recommendations that were
          overdue or that affected current or future protectiveness. We also conducted
          interviews with OSWER, FFRRO, and the Office of Enforcement and
          Compliance Assurance (OECA), Federal Facilities Enforcement Office to obtain
          information on EPA’s oversight role.

          We reviewed sites that had determinations of “not protective,” “protectiveness
          deferred,” and “protective in the short term,” to determine why recommendations
          or actions at these sites were overdue. We compared the protectiveness
          statements listed in CERCLIS with those in the published Reviews and in reports
          to Congress. We also reviewed the EPA response letters to federal facility
          Reviews to determine the Agency’s concurrence. This analysis included the most
          recent concurrence letter for all 137 sites that filed a Review.

          To address Question 2, we reviewed EPA management controls for ensuring
          federal facility completion of Reviews and completion of the recommendations.
          Our working definition of a completed recommendation was one with a status of
          “complete,” “addressed in the next review,” or “considered but not implemented”
          in CERCLIS. We defined a recommendation as overdue if it had not been
          completed and the current planned completion date had passed. We requested
          information and interviewed Federal Facilities Enforcement Office to determine
          EPA’s enforcement actions related to Reviews and unimplemented
          recommendations. We interviewed FFRRO to identify any management controls
          for monitoring Review recommendations. We reviewed 15 federal facility
          agreements (FFAs) signed since 2001 to determine whether the Reviews were
          defined as a primary document and therefore subject to dispute resolution and
          stipulated penalties.

Limitations
          We relied on CERCLIS data for much of our analysis. We identify CERCLIS
          data quality issues germane to the objectives of this evaluation in Chapter 4 of this
          report. We did not independently verify that recommendations EPA regional staff
          designated as complete in CERCLIS were in fact complete.




                                            4

                                                                               10-P-0133 



Prior Evaluation Coverage
          The following recent EPA Office of Inspector General (OIG) and U.S.
          Government Accountability Office (GAO) reports addressed issues related to the
          scope of our review.

             •	 EPA OIG, EPA Has Improved Five-Year Review Process for Superfund
                Remedies, But Further Steps Needed, Report No. 2007-P-00006,
                December 5, 2006.
             •	 GAO, Greater EPA Enforcement and Reporting Are Needed to Enhance
                Cleanup at DOD Sites, GAO-09-278, March 13, 2009.




                                         5

                                                                                10-P-0133 





                               Chapter 2

 EPA Needs a Management Control for Monitoring the 

      Completion of Review Recommendations 

          EPA does not have a management control for monitoring the completion of
          Review recommendations. EPA is not consistently updating the status of, or
          monitoring the completion of, Review recommendations as communicated in
          EPA guidance and emphasized by EPA management. When we began our
          review, CERCLIS data showed that 84 percent of the Review recommendations
          made since 2006 were overdue. Further, regions are not submitting annual status
          reports on Reviews as specified in guidance. Consequently, review
          recommendations may not be implemented in a timely fashion, or at all, and
          underperforming or nonperforming clean-up remedies may not be improved,
          potentially increasing the risk to human health and the environment.

Entry of Review Data in CERCLIS is Required
          Both EPA policy and management communications require that progress on
          Review recommendations be monitored and entered into CERCLIS. EPA’s 2001
          Review Guidance states, “Regions should track the progress and completion of
          recommendations and/or follow-up actions with documentation in the site file,
          and upon completion update the administrative record in the site information
          repository.” In addition, a 2007 OSWER memorandum states that EPA regions
          should maintain timely and accurate Review data to ensure CERCLIS accurately
          reflects Review planning information, conclusions, and current progress on
          implementing recommendations.

          Each Review issue and its associated recommendation that affects current or
          future protectiveness of remedies should be entered into CERCLIS by regional
          staff. EPA’s Five-Year Review CERCLIS Manual discusses entering the
          following issue and recommendation data:

             •	 Issue and recommendation details. This information includes the
                category of the issue, such as remedy performance or changed site
                conditions, and the recommendation to address the issue.
             •	 Protectiveness indicators. For each issue, CERCLIS captures a separate
                entry indicating whether the issue affects both current and future
                protectiveness.




                                          6

                                                                                                   10-P-0133


                     •	 Milestone dates. Each recommendation contains three milestone dates:
                            ¾ The initial planned completion date, which should not be modified
                               after entry.
                            ¾ The current planned completion date, which reflects any changes
                               in the planned date.
                            ¾ The actual completion date.
                     •	 Status. This is an indicator of the completion of the recommendation and
                        includes values of “complete,” “considered but not implemented,”
                        “ongoing,” “under discussion,” and “blank.” Recommendations are
                        considered complete when they are designated as complete, addressed in
                        the next Review,2 or considered but not implemented.

                 A recommendation is considered overdue if it is past its current planned
                 completion date and the status is not complete. EPA staff have developed a
                 number of internal CERCLIS reports that allow the data to be extracted and
                 displayed in a variety of ways. These reports include the identification of overdue
                 recommendations (i.e., recommendations not yet completed, with a past-due
                 planned completion date).

Recommendations Are Not Monitored for Completion
                 EPA guidance affirms that Review recommendations should be monitored.
                 However, EPA does not have a management control for this. Section 3.8 of
                 EPA’s 2001 Comprehensive Five Year Review Guidance states that each EPA
                 region should report annually to EPA Headquarters on the progress of the
                 Reviews for each of its sites. The guidance states the reports are to include,
                 among other things, the following specific information:

                     •	 For each completed Review, a summary of the protectiveness
                        determination(s), issues that impact protectiveness, follow-up actions, and
                        the schedule and entity responsible for implementing such actions;
                     •	 Status of protectiveness when Review reports from previous fiscal years
                        made a “not protective” determination or “needed further information”
                        before making a protectiveness determination, or deferred protectiveness;
                        and
                     •	 Status of follow-up actions identified in Review reports from previous
                        fiscal years.

                 EPA Headquarters staff stated these reports have never been submitted. In
                 response to a previous OIG report, EPA agreed that the annual reporting
                 requirement in Section 3.8 of EPA’s 2001 Review Guidance could be replaced by
                 Review data in CERCLIS. EPA agreed in this previous report that regions would
2
 While conducting this review, we used EPA’s definition of a complete recommendation, which includes the status
of “addressed in the next Review.” This status means the recommendation is carried over and will be addressed
during the next Review. No “addressed in the next Review” or “considered and not implemented” recommendations
were found in the April 28, 2009, data.


                                                      7

                                                                                             10-P-0133 



                    be required to keep CERCLIS up to date with Review data. However, this
                    recommendation has not been implemented as agreed.

                    As of April 28, 2009, 84 percent of 222 recommendations made in Reviews
                    during the 2006-2008 period were overdue and not designated as “complete” in
                    CERCLIS. During the course of our review, EPA regional staff updated
                    CERCLIS data, reducing the percent of overdue recommendations to 39 percent
                    (as of August 26, 2009).3

                    According to FFRRO staff, twice each year Headquarters informally distributes to
                    EPA regions a CERCLIS Review report that identifies overdue recommendations.
                    This report could serve as part of an effective management control to monitor the
                    completion of recommendations. However, this report was not distributed to any
                    of the regional federal facility branch chiefs. EPA Headquarters staff advised that
                    the distribution procedure for the report would be updated to include regional
                    federal facility contacts.

                    The lack of consistent updates to CERCLIS Review information may also be
                    affected by regional variations in monitoring and data input. Methods of regional
                    monitoring included status reports received from the federal facility and
                    spreadsheets, tables, or action item lists maintained by the RPM. According to
                    Region 9 staff, they use an “outstanding recommendation” report that is managed
                    at the section chief level. In contrast, an RPM in another region was unaware that
                    Review recommendations and issues were monitored, and still another RPM
                    stated that monitoring Review recommendations was not a priority because of
                    competing demands for resources. However, this RPM did state that regional
                    staff meet frequently with the federal facility to discuss recommendations.
                    Irrespective of the method used, recommendations were overdue for sites in all
                    regions we selected for review.

                    The issues identified in Reviews can be significant to human health and the
                    environment, underscoring the need to monitor the completion of Review
                    recommendations. Specific examples of issues from recent Reviews are:

                        •	 Ogden Defense Depot, Utah
                              ¾ After 11 years of operation, the groundwater clean-up remedy has
                                 not been effective in reducing vinyl chloride concentrations to
                                 public safety standards.
                              ¾ Workers at the Site could be exposed to chemical vapors from
                                 contaminated groundwater underneath buildings if concrete floors
                                 are not intact and impervious.




3
    We did not verify the accuracy of this reduction in overdue recommendations.


                                                          8

                                                                                  10-P-0133 



              •	 Fort Ord, California
                     ¾ The long-term protectiveness of an area at the site that has a
                         history of trespassing has been deferred because all explosives
                         have not yet been remediated.
              •	 Eielson Air Force Base, Alaska
                     ¾ Ingestion of fish with high levels of polychlorinated biphenyls, or
                         PCBs, may pose unacceptable health risks.
                     ¾ The extent of trichloroethene (TCE) groundwater contamination is
                         unknown.
              •	 Fairchild Air Force Base, Washington
                     ¾ TCE has been detected at increasing levels in an offsite
                         groundwater monitoring well. This condition may not be related to
                         the remedial action, but could indicate another source of TCE
                         contamination. This condition has been determined to affect future
                         site protectiveness.

Conclusions
         EPA lacks a management control for monitoring the progress and completion of
         Review recommendations. Regions are not updating CERCLIS information with
         the status of Review recommendations as required. EPA is not using CERCLIS
         consistently to monitor recommendations. Regions are not providing annual
         updates on Reviews as recommended in guidance, and Headquarters is not
         providing oversight to ensure submittal of these updates. Methods used to
         monitor recommendations vary by region and RPM. Improvements are needed to
         ensure that recommendations are completed in a timely fashion to assure remedy
         performance and overall protectiveness of federal facility NPL sites.

Recommendations
         We recommend the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-1 	   Develop and implement a management control for monitoring completion
                 of federal facility Review recommendations.

         2-2 	   Implement policies and procedures to address Section 3.8 of EPA’s 2001
                 Review Guidance, including (1) a summary for each Review completed
                 during the year, (2) an update of the status of OUs from sites designated as
                 “not protective” or “protectiveness deferred” in Reviews from prior years,
                 and (3) the status of follow-up actions identified in Reviews from prior
                 years. To the extent that this can be accomplished through the use of
                 CERCLIS, specific reports should be implemented and monitored.




                                           9

                                                                              10-P-0133 





Agency Comments and OIG Evaluation
         OSWER agreed with Recommendations 2-1 and 2-2 and it proposed acceptable
         corrective action plans to address them. Recommendations 2-1 and 2-2 are open
         with agreed-to actions pending. In its final response to this report, OSWER
         should provide estimated or actual completion dates for these recommendations.
         Although our review was limited to NPL federal facility sites, in its response
         OSWER said it would work to ensure that its other offices are aware of the
         recommendations and, if needed, will implement processes to improve on
         monitoring, tracking, and completing recommendations listed in all Reviews.

         Appendix A provides the complete Agency comments, including follow-up
         responses, and the OIG response.




                                        10 

                                                                                                       10-P-0133 





                                          Chapter 3

                  EPA Needs Additional Oversight and
                  Enforcement Guidance for Reviews
                 EPA’s management of the concurrence process has resulted in some Reviews
                 being conducted more than 5 years apart and issues potentially not being
                 addressed. EPA uses its concurrence date as the Review completion date instead
                 of the date that the federal facility submits its Review. This practice can cause
                 delays in identifying potential problems with site clean-ups. EPA has no
                 management controls or policy for communicating, following up on, or resolving
                 issues it does not agree with or it believes need improvement. Enforcement
                 options are not clearly documented in EPA guidance or policy statements and are
                 not consistently understood or followed by staff. These conditions can impede
                 the effectiveness of the Review process to protect human health and the
                 environment, demonstrating the need for guidance on enforcement and oversight.

Lack of Controls and Guidance Impedes Compliance with Legal
Requirements and Affects the Quality of Reviews
                 CERCLA requires Reviews every 5 years. However, current EPA guidance
                 establishes the due date for federal facility Reviews as 5 years from the date of
                 EPA’s concurrence letter for the preceding Review. Because EPA has not
                 implemented any controls over the concurrence process, EPA regions may issue
                 concurrence letters several months, or years, after a Review is submitted. This
                 delay in the issuance of concurrence letters results in some Reviews being issued
                 beyond the 5-year legal requirement.

                 Late Reviews Occur Because of Delays in EPA Concurrence

                 Twenty-nine percent of the Reviews completed4 since 2006 were late by more
                 than 6 months, measured from the date of the prior review (Figure 3-1). Seven of
                 the Reviews (13 percent) were more than 1 year overdue, and one Review was
                 overdue by almost 3 years. Reviews were more than 1 year overdue in part
                 because of EPA delays in signing the concurrence letter for the Review.
                 According to EPA Regional staff, signed concurrence letters were delayed
                 because Reviews were submitted late, Reviews were incomplete or in draft form
                 and had to be resubmitted, or EPA disagreed with the Reviews and time was
                 needed to resolve disagreements.



4
 A Review is “completed” as of the Review date entered into CERCLIS, which is the date EPA signs its
concurrence letter.


                                                      11 

                                                                              10-P-0133 



EPA has no policy or         Figure 3-1: Timeliness of 5-Year Reviews Signed After 2006
guidance to define when
                                                                On time
federal facility Reviews                                    (19 sites, 35%)
should be submitted to
EPA to allow for timely
concurrence review
within the 5-year
timeframe.

The site management
plan (SMP) could                Late more than 6                         Late within 6
potentially be used to               months                                months

minimize delays in EPA           (16 sites, 29%)                       (20 sites, 36%)


concurrence with the          Source: OIG analysis of CERCLIS data.
Review. An SMP
provides a list of steps and a summary of CERCLA response actions and
associated work products required at each federal facility. The SMP provides
milestones that reflect the schedule of completing CERCLA response actions that
have been agreed to by the lead agency and the regulatory agencies. The SMP
could include a date for submittal of a draft Review by the federal facility, which
allows EPA time to review the document and resolve disagreements prior to the
Review’s statutory deadline. While the target date could serve as guidance, EPA
could not enforce the SMP’s date. However, EPA could enforce the statutory
deadline if the federal agency failed to submit the Review within 5 years of
initiation of the remedial action.

EPA’s Concurrence Process Lacks Other Management Controls

Agency guidance states that EPA has final authority over whether Reviews
adequately address the protectiveness of remedies. Agency guidance also states
that EPA will concur with federal agency Reviews or EPA may provide
independent findings. The concurrence process provides a control for monitoring
the quality of the Reviews and associated recommendations to ensure overall
remedy protectiveness. However, EPA lacks policy and procedures for its
concurrence process. Specific issues are:

   •	 No guidance on timeframes and process for concurrence review. EPA
      has no guidance on when federal agencies should submit their Reviews to
      EPA regions, how long EPA’s review should take, or what the process for
      review is and whether and what internal EPA coordination is needed.
      Lack of clear policies in this matter may compromise the validity of the
      reviews. According to EPA’s Superfund Program Reviews 2007-2008
      Cycle, some regions stated they will only provide feedback on a federal
      facility Review if they receive it with enough time to do so before the final
      due date.




                                  12 

                                                                                                      10-P-0133 



                     •	 Lack of standards for concurrence letters.
                           ¾ Inconsistent content: Letters take various forms. Letters for 12
                              Reviews consisted only of EPA signatures with no statement of
                              concurrence.
                           ¾ Unclear nonconcurrence: Some letters did not include EPA
                              statements that the Agency agreed or disagreed with the federal
                              facility’s protectiveness statement. EPA did not concur with 14 of
                              137 federal facility Reviews. However, EPA stated its
                              nonconcurrence in only 3 letters. The other 11 letters included an
                              EPA revised protectiveness statement, but not an EPA
                              nonconcurrence statement.

                     •	 No follow-up and resolution of nonconcurrence issues. EPA has no
                        controls to prioritize and monitor the resolution of issues included in
                        nonconcurrence letters. The lack of controls over the concurrence process
                        can result in inconsistency in how disagreements are communicated and
                        resolved, or whether disagreements and concerns are disclosed by EPA.

                     •	 Some letters missing from the online record. EPA provides access to
                        Reviews through the Internet. However, EPA’s concurrence letter is not
                        always included in the online federal facility Review record. As a result,
                        EPA staff and the general public may not be able to ascertain the
                        Agency’s concurrence or nonconcurrence.

Guidance on Enforcement of Review Recommendations Needed
                 Guidance can support EPA’s ability to enforce the completion of
                 recommendations at federal facilities, which may be necessary to maintain site
                 protectiveness. According to EPA, its enforcement authority over federal facility
                 NPL sites is limited by CERCLA. EPA’s ability to take CERCLA enforcement
                 actions at a federal facility is determined by the wording of the FFA.5 FFAs are
                 negotiated agreements developed separately for each federal facility. FFAs vary
                 in the wording that provides EPA the ability to enforce the submittal of a Review
                 or the completion of recommendations.

                 EPA Regions Have Differing Views of Their Enforcement Options

                 Implementation of Review recommendations can be necessary to ensure site
                 protectiveness. However, EPA regions have differing views on their ability to
                 enforce Review recommendations at federal facilities. In addition, EPA
                 Headquarters is uncertain of the enforceability of the recommendation milestones.
                 Two of the five regions interviewed stated they can use the Superfund Record of

5
 An exception is EPA’s authority related to imminent and substantial endangerment, which is a worst-case scenario.
U.S. Department of Justice concurrence is necessary for EPA to issue a CERCLA order to another federal agency in
cases of imminent and substantial endangerment.



                                                       13 

                                                                          10-P-0133 



Decision to enforce the completion of Review recommendations that affect site
protectiveness. However, two other regions reported they have little enforcement
authority because the federal facility is the lead agency.

Staff in some regions are not aware of the tools they can use to enforce the
completion of recommendations. For instance, staff in one region believed that
they could enforce Review recommendations through the FFA as long as the issue
related to protectiveness. Staff in another region believed that Review dates could
not be enforced unless they were listed as primary documents in the FFA. Staff in
two of the five regions interviewed believed that EPA could not enforce the
implementation of Review recommendations because EPA is not the lead agency.
These differing opinions among regions may be due to a lack of enforcement
guidance – EPA has not clearly identified the set of enforcement tools available to
the regions to assist in the timely completion of Review recommendations.

Reviews Should Be but Are Not Consistently Enforceable under
Existing Federal Agreements

A component of EPA’s Review enforcement capability is based on the definition
of the Review as a “primary document” in the FFA. Inclusion as a primary
document is dependent upon the consent of the federal agency, as EPA lacks the
authority to compel DOD to include language in a consensual agreement.
However, Reviews are not consistently listed as primary documents in FFAs.
Designation as a primary document in the FFA generally provides authority for
formal dispute resolution as well as the assessment of stipulated penalties.
Enforcement options vary by site, and the specifics of the process are defined in
each site’s FFA. If an issue is not resolved informally, then the formal process is
decided by the EPA Administrator.

According to OECA staff, completion of Reviews may be enforced by EPA under
at least one of three conditions:

   1.	 Reviews are defined as primary documents in FFAs. EPA’s 2001
       Review Guidance states, “For Federal facilities only, EPA considers
       Review reports to be stand-alone primary documents or part of another
       related primary document that should have an enforceable schedule within
       the framework of the FFA.”

   2.	 Reviews are defined as a “periodic assessment” in DOD FFAs. DOD
       began referring to a Review as a “periodic assessment” in the FFA in 2003
       and does not classify these as primary documents. However, OECA stated
       that periodic assessments should be enforceable as a term or condition of
       the FFA.

   3.	 FFAs should act in accord with CERCLA. In the FFA, the federal
       facility commits to implementing a remedy in accordance with CERCLA.



                                 14 

                                                                                  10-P-0133


                Since the Review is required under CERCLA, failure to complete the
                Review is a violation of the FFA.

         Because of the importance that OECA staff placed on the wording of FFAs, we
         examined the 15 FFAs signed since 2001. Both of the non-DOD FFAs identified
         the Review as a primary document consistent with EPA’s guidance. Of the 13
         DOD FFAs, almost all (12) identified the Review as a periodic assessment.
         Therefore, all of the FFAs with the Review identified as a periodic assessment
         should be enforceable.

Conclusions
         EPA lacks a management control to ensure EPA’s concurrence letters are timely,
         consistent, and transparent. EPA’s policy of basing future Reviews on the date of
         the concurrence letter has resulted in submissions that violate the statutory
         requirement for a Review every 5 years. EPA’s ability to enforce the submission
         of Reviews and the completion of recommendations is unclear. EPA lacks
         guidance on Review enforcement tools. Improvement in EPA’s ability to enforce
         Review submission and the completion of recommendations would enhance the
         effectiveness of the Review process, leading to improved remedy performance
         and protection of human health and the environment.

Recommendations
         We recommend the Assistant Administrator for Solid Waste and Emergency
         Response:

         3-1    Establish a policy to set the due date for Reviews every 5 years, consistent
                with law. Current guidance sets the due date as 5 years from EPA’s
                concurrence date for the prior review.

         3-2    Develop and consistently implement a transparent and public mechanism
                to identify, monitor, and resolve EPA nonconcurrence with federal facility
                Reviews. This should include policies and procedures for conducting
                concurrence reviews, addressing the lead time needed for EPA regional
                review prior to the due date, and defining a standard format for
                concurrence letters.

         3-3    Develop a management control to monitor overdue Reviews.




                                         15 

                                                                                 10-P-0133


         We recommend the Assistant Administrator for Enforcement and Compliance
         Assurance:

         3-4 	   Develop enforcement policy that describes EPA enforcement tools,
                 processes, and authorities to achieve completion of Review
                 recommendations, as well as the timely submittal of complete Reviews.
                 As appropriate, the guidance should include the desired wording in the
                 FFA and SMP to support this enforcement.


Agency Comments and OIG Evaluation
         The OIG made changes to the report based on the Agency’s comments where
         appropriate. OSWER provided the official Agency response, which incorporated
         OECA’s comments.

         OSWER agreed with recommendations 3-1, 3-2, and 3-3. However, in its official
         response to the draft report, OSWER disagreed with recommendation 3-1.
         OSWER stated that it believed its current policy can achieve the intent of this
         recommendation, and proposed a joint memorandum to the regions to emphasize
         the policy. The OIG did not agree with this proposed corrective action and met
         with OSWER to discuss the recommendation and alternatives. OSWER
         subsequently agreed with recommendation 3-1 and provided an acceptable
         corrective action plan. In its final response to this report, OSWER should provide
         estimated or actual completion dates for recommendations 3-1, 3-2, and 3-3.
         These recommendations are open with agreed-to actions pending.

         OECA agreed with Recommendation 3-4. However, the draft report response did
         not provide a clear corrective action plan to address the recommendation. After
         follow-up discussion, OECA provided an updated response to recommendation
         3-4 that presented an acceptable corrective action plan.

         Appendix A provides the full text of the Agency comments, including follow-up
         responses, and the OIG’s response.




                                         16 

                                                                                      10-P-0133 





                                 Chapter 4

  CERCLIS Data Quality Problems Impede Accurate 

  Documentation of Issues and Recommendations 

          EPA lacks management controls to ensure that CERCLIS information accurately
          reflects the issues and recommendations reported in Reviews, which can impact
          EPA’s efforts to monitor progress. Discrepancies exist between the Review
          issues and recommendations and those entered in CERCLIS. In addition, other
          inconsistencies are introduced into CERCLIS Review data after initial entry.
          CERCLIS lacks a method to confirm that recommendations from prior Reviews
          have been addressed. EPA should have controls for accurate entry of issues and
          recommendations into CERCLIS, and controls for timely updates to Review
          information to ensure that issues and recommendations are accurately recorded,
          documented, and understood by EPA staff that rely on CERCLIS data.

Discrepancies Exist Between Information in Published Reviews and in
CERCLIS
          In the regions where we conducted interviews, the RPMs or other designated
          regional staff enter data on issues, recommendations, and protectiveness
          determinations from the Review into CERCLIS. Recommendation data, such as
          completion status,              Figure 4-1: Comparison of Recommendations in Reviews
          milestone dates, and            and CERCLIS
          comments, can be updated
          to reflect changes. In a
          sample of 36 Reviews
          completed after 2006 that
          we selected, we identified a
          total of 495                                                          121
                                                           136       238
          recommendations that
          appeared in the Reviews, in
          CERCLIS, or in both
          (Figure 4-1). Only 238             5-Year Rev
iew                             CERCLIS
          recommendations were             Recommendat
ions                        Recommendations
          present in both CERCLIS 
 Source: OIG analysis of CERCLIS Reviews after 2006.
          and the Reviews. We
          could not find in CERCLIS 136 (36 percent) of the 374 recommendations that
          appeared in our sample of Reviews. In addition, we could not identify in our
          sample of Reviews 121 (34 percent) of the 359 recommendations in CERCLIS.
          For 14 of the 36 Reviews (39 percent) we selected, all recommendations that were
          in the published Reviews were also in CERCLIS.




                                            17 

                                                                                  10-P-0133


          In some cases, the descriptions of the recommendations in CERCLIS were so
          different from the descriptions in the Review that it was difficult to determine
          whether all recommendations were entered in CERCLIS. This analysis was
          further complicated for some sites by the use of different OU naming conventions
          in the Review and CERCLIS.

CERCLIS Data Quality Issues Affect EPA’s Ability to Monitor Reviews
          We encountered multiple data quality problems that can affect EPA’s ability to
          use CERCLIS to monitor the completion of Review recommendations. These
          include:

             •	 Review data modified after entry. A May 2007 memorandum on Five-
                Year Review Program Priorities states OSWER’s intent to ensure that
                CERCLIS accurately reflects Review planning information, report
                conclusions, and current progress on implementing recommendations.
                The memorandum further states that CERCLIS should reflect the original
                planned completion date, while allowing the update of the
                recommendation status, current planned date, and comments if the planned
                date changes. We observed that changes were made to the original
                planned completion date and other Review data to reflect changes in the
                recommendation status, rather than to the status, current planned date, and
                comments. This misunderstanding of how Review data in CERCLIS
                should be maintained should be corrected.

             •	 Some CERCLIS data logically inconsistent. We observed several types
                of logical inconsistencies regarding the entry of Review data into
                CERCLIS. These issues include:

                     ¾ Protectiveness designation inconsistent with other data. Each
                       Review issue includes a Yes/No (Y or N in CERCLIS)
                       determination as to whether the issue affects current or future
                       protectiveness. Of the 48 sites filing Reviews after 2006, 11 are
                       designated in CERCLIS as “protective” but have issues that affect
                       current and/or future protectiveness. Conversely, 7 sites have OUs
                       listed in CERCLIS as “less than protective” but have no issues
                       listed that affect either current or future protectiveness. The 2001
                       EPA guidance does not address the use of current and future
                       protectiveness in determining OU protectiveness.

                     ¾ Sitewide protectiveness defined incorrectly. Sites with more than
                       one OU that have completed construction of the remedy are
                       required to identify the sitewide protectiveness in CERCLIS.
                       According to EPA’s 2001 guidance, a site is considered protective
                       if the remedies at all OUs are protective, but if at least one OU is
                       not protective, the site is not protective. We found seven federal


                                          18 

                                                                                                   10-P-0133


                                  facility sites with a sitewide protectiveness that is inconsistent with
                                  the protectiveness of the OUs.6

                     •	 Data from prior years not always closed out. Although the 2001 EPA
                        guidance states that the Review should address the status of
                        recommendations from the prior Review, regional staff we interviewed did
                        not understand how these recommendations should be closed out in
                        CERCLIS.

Conclusions
                 Significant inconsistencies between issues and recommendations in the Review
                 submitted by the federal facility and data entered in CERCLIS affect the ability of
                 EPA to effectively monitor the completion of recommendations that address site
                 protectiveness. CERCLIS data quality problems compromise its potential as a
                 tool for monitoring Reviews.

Recommendations
                 We recommend the Assistant Administrator for Solid Waste and Emergency
                 Response:

                 4-1 	 Develop a management control to ensure consistency between the Review
                       and CERCLIS. At a minimum, this control should ensure that all Review
                       recommendations that affect current or future protectiveness are entered into
                       CERCLIS for monitoring, consistent with EPA’s 2001 guidance.

                 4-2 	 Develop guidance and/or CERCLIS controls to address data quality issues,
                       including the modification of data after entry, logical inconsistencies
                       between CERCLIS data elements, and the close-out of recommendations
                       from prior reviews.

Agency Comments and OIG Evaluation
                 OSWER agreed with Recommendations 4-1 and 4-2. However, for
                 Recommendation 4-1, the OIG requested additional information from OSWER on
                 its proposed corrective plan, which was provided. OSWER’s proposed corrective
                 actions for recommendations 4-1 and 4-2 are acceptable. These recommendations
                 are open with agreed-to actions pending. In its final response to this report, EPA
                 should provide estimated or actual completion dates for these recommendations.


6
 The seven sites and their Review year are Aberdeen Proving Ground (Michaelsville Landfill) 2003; Aberdeen
Proving Ground (Michaelsville Landfill) 2009; Castle Air Force Base 2004; Fort Richardson 2008; Joliet Army
Ammunition Plant (Load Assembly Area) 2004; Naval Air Station, Whidbey Island (Ault Field) 2004; Naval Air
Station, Whidbey Island (Seaplane Base) 2004.


                                                     19 

                                                                  10-P-0133 



Appendix A provides the complete Agency comments, including follow-up
responses, and the OIG response.




                             20 

                                                                                                                                    10-P-0133



                           Status of Recommendations and
                             Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                             RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                              Planned
Rec.   Page                                                                                                  Completion   Claimed    Agreed To
No.     No.                        Subject                          Status1         Action Official             Date      Amount      Amount

2-1     9     Develop and implement a management control for          O        Assistant Administrator for
              monitoring completion of federal facility Review                Solid Waste and Emergency
              recommendations.                                                         Response

2-2     9     Implement policies and procedures to address            O        Assistant Administrator for
              Section 3.8 of EPA’s 2001 Review Guidance,                      Solid Waste and Emergency
              including (1) a summary for each Review                                  Response
              completed during the year, (2) an update of the
              status of OUs from sites designated as “not
              protective” or “protectiveness deferred” in Reviews
              from prior years, and (3) the status of follow-up
              actions identified in Reviews from prior years. To
              the extent that this can be accomplished through
              the use of CERCLIS, specific reports should be
              implemented and monitored.

3-1     15    Establish a policy to set the due date for Reviews      O        Assistant Administrator for
              every 5 years, consistent with law. Current                     Solid Waste and Emergency
              guidance sets the due date as 5 years from EPA’s                         Response
              concurrence date for the prior review.

3-2     15    Develop and consistently implement a transparent        O        Assistant Administrator for
              and public mechanism to identify, monitor, and                  Solid Waste and Emergency
              resolve EPA nonconcurrence with federal facility                         Response
              Reviews. This should include policies and
              procedures for conducting concurrence reviews,
              addressing the lead time needed for EPA regional
              review prior to the due date, and defining a
              standard format for concurrence letters.

3-3     15    Develop a management control to monitor overdue         O        Assistant Administrator for
              Reviews.                                                        Solid Waste and Emergency
                                                                                       Response

3-4     16    Develop enforcement policy that describes EPA           O        Assistant Administrator for
              enforcement tools, processes, and authorities to                     Enforcement and
              achieve completion of Review recommendations,                     Compliance Assurance
              as well as the timely submittal of complete
              Reviews. As appropriate, the guidance should
              include the desired wording in the FFA and SMP to
              support this enforcement.

4-1     19    Develop a management control to ensure                  O        Assistant Administrator for
              consistency between the Review and CERCLIS.                     Solid Waste and Emergency
              At a minimum, this control should ensure that all                        Response
              Review recommendations that affect current or
              future protectiveness are entered into CERCLIS for
              monitoring, consistent with EPA’s 2001 guidance.




                                                                          21 

                                                                                                                                        10-P-0133


                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1          Action Official             Date      Amount      Amount

    4-2       19    Develop guidance and/or CERCLIS controls to             O      Assistant Administrator for
                    address data quality issues, including the                    Solid Waste and Emergency
                    modification of data after entry, logical                              Response
                    inconsistencies between CERCLIS data elements,
                    and the close-out of recommendations from prior
                    reviews.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                22 

                                                                                               10-P-0133


                                                                                             Appendix A

              OSWER Response to OIG Draft Report and
                        OIG Response

OIG Note: Page numbers referenced in the Agency response refer to the Draft Report. Page
numbers may not be the same in this final report.

April 29, 20107

MEMORANDUM

SUBJECT:          OSWER’s Response to the Office of the Inspector General Draft report,
                  “EPA should Improve Its Oversight of Federal Agency Superfund Reviews”

FROM:             Mathy Stanislaus/s/
                  Assistant Administrator

TO:               Carolyn Copper
                  Director for Program Evaluation
                  Hazardous Waste Issues

       Thank you for the opportunity to review and respond to the Office of the Inspector
General’s (OIG) Draft Evaluation Report entitled “EPA Should Improve Its Oversight of Federal
Agency Superfund Reviews.” We also appreciate the meetings with your staff to discuss your
findings prior to issuance of the draft report. Our response incorporates the Office of
Enforcement and Compliance Assurance (OECA) and Regional comments.

       An important part of the context for this work is the Executive Order and applicable
appropriations. Under the Executive Order, most federal departments have served as lead
agency for Superfund remediation at their own facilities, and appropriations are structured
accordingly. Thus, EPA's role is oversight of work led by the responsible federal department.

        We agree that EPA needs to implement improved management controls to monitor the
completion of federal facility five-year review (Review) recommendations. We believe that the
majority of the OIG recommendations can be implemented in CERCLIS and through a joint
OSWER/OECA policy memorandum to the Regions. The Agency does not agree with the
implication raised at several points in the report that the lack of full management controls may
result in increased risk to human health and the environment. We suggest that it would be more
appropriate to say that "Improvements are needed to ensure that recommendations are
completed in a timely fashion so that remedy performance and protectiveness are documented."



7
    Additional information provided by OECA on May 18, 2010, and by OSWER on May 19, 2010.


                                                     23 

                                                                                        10-P-0133 



       As a follow-up to the OIG evaluation, OSWER and OECA will issue a joint
memorandum to the Regions that will address the recommendations in the draft report. This
memorandum will explain changes in how Review recommendations are tracked, monitored, and
implemented. The memorandum will provide clarification to the Regions on issues that affect
present and future protectiveness of the remedy. We will also explain the enforcements options
and tools available to the Regions to help ensure that five-year recommendations are being
implemented.

         We also understand that the universe of sites for your review was limited to NPL federal
facility sites. Therefore, we also understand that the recommendations submitted in your draft
report only pertain to federal facility sites. I will work to ensure, however, that other OSWER
offices are aware of the recommendations and, if needed, will implement processes to improve
on monitoring, tracking, and completing recommendations listed in all Reviews.

        Our attached response includes comments on the findings, agreement/disagreements with
the recommendations, planned corrective action, and an action plan for implementing the
recommendations. Our second attachment includes technical comments that should be
considered.

      If you have any questions regarding this response, please contact John Reeder at (703)
603-9089.

Attachments




                                                24 

                                                                                        10-P-0133 





                                       Attachment 1
                           EPA Response to OIG Recommendations

Recommendation 2-1

Develop and implement a management control for monitoring completion of federal facility
Review recommendations.

EPA Response

       We agree with this recommendation. FFRRO will begin to address the Review
recommendations during our mid-year and end-of-the-year planning meetings with the Regions.
Twice a year, we will send e-mails to the Regional Federal Facility Managers with a list of
recommendations that have not been completed or are overdue. Our workplanning meetings
occur in March and August. We will continue to monitor the implementation of the
recommendation.

OIG Response: The OIG agrees with the Agency’s proposed actions in response to
Recommendation 2-1. The recommendation is open with agreed-to actions pending. In its final
response to this report, EPA should provide estimated or actual completion dates for this
recommendation.

 Recommendation 2-2

Implement policies and procedures to address Section 3.8 of EPA’s 2001 Review Guidance,
including (1) summary for each Review completed during the year, (2) an update on the status of
OUs from sites designated as “not protective” or “protectiveness deferred” in Reviews from
prior years, and (3) the status of follow-up actions identified in Reviews from prior years. To the
extent this can be accomplished through the use of CERCLIS, specific reports should be
implemented and monitored.

EPA Response

        We agree with this recommendation. OSWER believes that there are existing reports
within CERCLIS that can implement this recommendation. FFRRO will use the mid-year and
end-of- the-year planning meetings as an opportunity for the Regions to provide updates on the
Reviews. In the OSWER and OECA policy memorandum, FFRRO will include expectations for
reporting requirements.

OIG Response: The OIG agrees with the Agency’s proposed actions in response to
Recommendation 2-2. The recommendation is open with agreed-to actions pending. In its final
response to this report, EPA should provide estimated or actual completion dates for this
recommendation.




                                                25 

                                                                                          10-P-0133 



Recommendation 3-1

Establish a policy to set the due date for Reviews every five years, consistent with the law.
Current guidance sets the due date as 5 years from EPA’s concurrence date for the prior
Review.

EPA Response

        We do not agree with this recommendation as drafted. We believe that our current
policy, if properly implemented, will achieve the intent of the OIG recommendation and is
consistent with the law. We believe that dates are missed because of the late reports submitted
by the federal agency or the continuous negotiations with federal agencies on the protectiveness
determination for a site. Our joint OSWER/OECA memorandum to the Regions will emphasize
that the review time should be based on what is indicated in the Federal Facility Agreement
(FFA) for documents and that if agreement can not be reached, then the Regions should make an
independent protectiveness determination statement.

EPA Revised Response (5/19/2010)
We agree with the intent of the recommendation. Starting in FY 2011, all Federal Facility five-
year reviews will be due on the date five years from the remedial action start date. We will work
with the Regions to ensure that both the Federal Agencies and the Regions know that the
completion date for a five-year review is five years from the remedial action start date. The
OSWER/OECA policy memorandum will reiterate to the Regions that they should communicate
to the other federal agencies that review time is needed and should be added to the schedule for
the completion of the report. FFRRO will continue to emphasize that five-year reviews must be
completed on time and due dates will not be adjusted if reports are late. The issue of due dates
will be addressed in the policy memorandum.


OIG Response: In follow-up communication, the Agency agreed with the recommendation, and
stated that it will require that all federal facility 5-year reviews be due on the date 5 years from
the remedial action date. The Agency stated it will issue an OSWER/OECA policy
memorandum to the regions to reiterate this policy. The OIG accepts this corrective action plan.
The recommendation is open with agreed-to actions pending. In its final response to this report,
EPA should provide estimated or actual completion dates for this recommendation.


Recommendation 3-2

Develop and consistently implement a transparent and public mechanism to identify, monitor,
and resolve EPA nonconcurrence with federal facility Reviews. This should include policies and
procedures for conducting concurrence reviews, addressing the lead time needed for EPA
regional review prior to the due date, and define a standard format for concurrence letters.




                                                 26 

                                                                                      10-P-0133 



EPA Response

        We agree with this recommendation. As stated before, OSWER and OECA will develop
a joint memorandum that will address procedures for conducting the federal facility Reviews and
how to resolve nonconcurrence with the Reviews. As an attachment to the policy memorandum,
OSWER and OECA will provide examples of concurrence and nonconcurrence letters. During
our quarterly meetings with the other Federal Agencies, OSWER will add a standing agenda
topic of Reviews and tracking and implementing the recommendations stated in the Reviews.
Once the OSWER and OECA joint policy memorandum is finalized, we will post it on our web
site. Also, the EPA concurrence and nonconcurrence letters and the final five-year review report
are posted on the Regional web site and are part of the administrative record for the site.

OIG Response: The OIG agrees with the Agency’s proposed actions in response to
Recommendation 3-2. The recommendation is open with agreed-to actions pending. In its final
response to this report, EPA should provide estimated or actual completion dates for this
recommendation.

Recommendation 3-3

Develop a management control to monitor overdue Reviews.

EPA Response

       We agree with this recommendation. Currently, we send letter to all of the Federal
Agencies identifying Reviews which are due or overdue. In addition, we report to Congress
every year those Reviews that have been completed or are overdue. During our mid-year and
end-of-the-year planning meetings and our quarterly meetings with the other federal agencies,
we will continue to address the due dates for Reviews.

OIG Response: The OIG agrees with the Agency’s proposed actions in response to
Recommendation 3-3. The recommendation is open with agreed-to actions pending. In its final
response to this report, EPA should provide estimated or actual completion dates for this
recommendation.

Recommendation 3-4

Develop enforcement policy that describes EPA enforcement tools, processes, and authorities to
achieve completion of Review recommendations, as well as the timely submittal of complete
Reviews. As appropriate, the guidance should include the desired wording in the FFA and the
SMP to support this enforcement.

EPA Response

       We agree with the recommendation and we will ensure that the EPA Regions are more
aware of the possible enforcement options for Reviews. In fact, OECA has already provided




                                               27 

                                                                                          10-P-0133


new guidance on the use of stipulated penalties and will issue additional new enforcement policy
which describes the Agency’s enforcement tools, processes and authorities for these Reviews.

        OIG's report should make clearer this critical point: that EPA’s ability to have the five-
year review report as a primary document (and clearly enforceable) is dependent on a federal
agency’s agreement that such document should be primary. The Defense Department, over at
least the last 10 years, has not agreed to EPA requests that the Review report be a primary
document in the FFA.

        Further, the Site Management Plan (SMP) has been included in FFAs only since 1999 so
a significant number of earlier FFAs – approximately 100 FFAs, more than half the total – do not
include the SMP and would not be affected by the above recommendation. Given that the vast
majority of EPA’s FFAs are with the Defense Department, EPA does not expect the Defense
Department to change its well-established position regarding the content of FFAs. Thus, while
we support the OIG’s recommendations in concept, it is not within EPA’s control to effectuate
the change OIG seeks in its recommendation to OECA regarding the wording in the FFA and
SMP.

EPA Revised Response (5/18/2010):
We agree with the recommendation and we will ensure that the EPA Regions are more aware of
the possible enforcement options for Reviews. In fact, OECA has already provided the
Regions with a new enforcement tool consisting of a concise summary of EPA procedures for
assessing stipulated penalties which includes practical examples of how this authority may be
used. OECA will issue new enforcement policy which describes the Agency’s enforcement tools,
processes and authorities for these Reviews. EPA agrees to develop a guide informing
EPA regions of the various enforcement options when a Federal agency is late submitting the
5-year review or fails to develop an adequate Review. EPA will ensure regions are aware of
FFA model language and how it can be used to support enforcement. When actions are taken to
enforce 5-year review requirements, OECA will inform the regions of those actions.

OIG's report should make clearer this critical point: that EPA’s ability to have the five-year
review report as a primary document (and clearly enforceable) is dependent on a federal
agency’s agreement that such document should be primary. The Defense Department, over at
least the last 10 years, has not agreed to EPA requests that the Review report be a primary
document in the FFA.

Further, the Site Management Plan (SMP) has been included in FFAs only since 1999 so
a significant number of earlier FFAs – approximately 100 FFAs, more than half the total – do not
include the SMP and would not be affected by the above recommendation. Given that the vast
majority of EPA’s FFAs are with the Defense Department, EPA does not expect the Defense
Department to change its well-established position regarding the content of FFAs. Thus, while
we support the OIG’s recommendations in concept, it is not within EPA’s control to effectuate
the change OIG seeks in its recommendation to OECA regarding the wording in the FFA and
SMP.




                                                 28 

                                                                                        10-P-0133 





OIG Response: In a follow-up communication, OECA provided specific information stating
that it will issue a new enforcement policy that describes the Agency’s enforcement tools,
processes, and authorities for these Reviews. The OIG agrees with the Agency’s revised
proposed actions in response to Recommendation 3-4. The recommendation is open with
agreed-to actions pending. In its final response to this report, EPA should provide estimated or
actual completion date for this recommendation.

A sentence has been added to the final report to indicate that inclusion as a primary document is
dependent upon the consent of the federal agency.


Recommendation 4-1

Develop a management control to ensure consistency between the Review and CERCLIS. At a
minimum, this control should ensure that all Review recommendations that affect current or
future protectiveness are entered into CERCLIS for monitoring, consistent with EPA’s 2001
guidance.

EPA Response

       We agree with this recommendation. We will reiterate to our Regional offices that only
recommendations that affect present or future protectiveness should be tracked and monitored in
CERCLIS. Question 28 in our recent FAQ on Reviews provides guidance to the Regions on the
types of issues and recommendations that should be monitored and tracked.


EPA Revised Response (5/19/2010): We agree with this recommendation. FFRRO will
reiterate to the Regions in the joint OSWER/OECA policy memorandum that only the
recommendations that affect current and future protectiveness should be tracked in CERCLIS.
FFRRO will also remind the Regions that recommendations in the five-year review should be
tracked in CERCLIS and that Regional managers should periodically check to ensure that the
information is inputted in CERCLIS correctly. FFRRO will ask Regions to report on the
implementation of this recommendation during the mid-year and end-of -the year work planning
meeting.


OIG Response: In a follow-up communication, OSWER provided information stating that it
would address the recommendation in the OSWER/OECA memorandum and would ask regions
to report on implementation of the recommendation during midyear and end-of-year work
planning meetings. The OIG agrees with the Agency’s revised proposed actions in response to
Recommendation 4-1. The recommendation is open with agreed-to actions pending. In its final
response to this report, EPA should provide estimated or actual completion date for this
recommendation.




                                                29 

                                                                                      10-P-0133 



Recommendation 4-2

Develop guidance and/or CERCLIS controls to address data quality issues, including the
modifications of data after entry, logical inconsistencies between CERCLIS data elements, and
the close-out of recommendations from prior Reviews.

EPA Response

        We agree with this recommendation. There are audit reports available which flag data
errors. FFRRO will continue monitoring and developing reports, as necessary, to ensure that
data quality issues are being addressed. Also, our recent FAQ on Reviews provides guidance to
the Regions on how to close-out recommendations which were not implemented from prior
Reviews. The FAQ states that the Region must change the status of the recommendation to
“Considered and Not Implemented” and enter text of why the recommendation was not
implemented. We will continue to monitor those fields to ensure that the Regions are closing-out
recommendations.

OIG Response: The OIG agrees with the Agency’s proposed actions in response to
recommendation 4-2. The recommendation is open with agreed-to actions pending. In its final
response to this report, EPA should provide estimated or actual completion date for this
recommendation.




                                              30 

                                                                                           10-P-0133 



                                         Attachment 2 

                                 Technical Comments by OECA 


Specific Comments

   1.	 Under “Late Reviews Occur Because of Delays in EPA Concurrence,” on page 11,
       second full paragraph, OIG’s draft report discusses the SMP as a tool that could be used
       to avoid delays in EPA concurrence. The SMP is a document typically used only in
       FFAs signed since 1999. For the FFAs signed since EPA and DoD resolved the FFA
       dispute (February, 2009), the terms of the FFA state that the SMP’s deadline for
       submission of the Periodic Assessment Report is merely a target date, unenforceable
       under the terms of the FFA. While the target date could serve as a guideline, EPA could
       not enforce the SMP’s date. However, EPA could enforce the statutory deadline if the
       Federal agency failed to submit the report within 5 years of initiation of the remedial
       action as that would be a term or condition of the FFA.

OIG Response: Language was added to the final report to reflect that EPA could enforce the
statutory deadline if the federal agency failed to submit the report within 5 years of initiation of
the remedial action.

   2.	 Under “Reviews Should be but are Not Consistently Enforceable under Existing Federal
       Agreements,” on page 13, first full paragraph, the OIG’s draft report could more clearly
       state that EPA lacks the authority to compel the Defense Department to include language
       in a consensual agreement. Whether a Review report is a primary document is dependent
       upon the consent of the Federal agency. The reader of the OIG report could likely get the
       impression that EPA has, within its control, the power to add the Review report as a
       primary document. EPA has no such control. As the OIG is aware, EPA recently
       resolved a several year-long FFA dispute with the Defense Department where the
       department refused to enter into FFAs altogether despite the requirement to enter one
       with EPA in CERCLA. The Defense Department refused to enter into FFAs where the
       requirement is clearly enunciated in statute. There is no analogous requirement that a
       Federal agency submit the Review report to EPA for review, let alone concurrence.

OIG Response: Language was added to the final report stating EPA’s lack of authority.

   3.	 On page 14, first full paragraph above “Conclusions,” the OIG reviewed recent FFAs
       (signed since 2001) to reach a conclusion that nearly all FFAs should be enforceable. It
       seems that the OIG meant to say that the periodic assessment is enforceable, rather than
       “nearly all FFAs should be enforceable.” EPA views that all FFAs are enforceable;
       however, not all FFAs have the “Periodic Assessment” provision, and, in fact, most do
       not have the language reviewed by the OIG. This means that EPA could not generalize
       over the hundred other FFAs that the Review provisions are enforceable under the FFA to
       the same degree as the recent Periodic Assessment provision.

OIG Response: Language was modified in the final report to be consistent with EPA’s
statement.


                                                 31 

                                                                                      10-P-0133


                                                                                  Appendix B

                                     Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Enforcement and Compliance Assurance
Regional Administrators, Regions 1-10
Director, Office of Regional Operations
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Federal Facilities Restoration and Reuse, Office of Solid Waste and
    Emergency Response
Deputy Director, Office of Federal Facilities Restoration and Reuse, Office of Solid Waste and
    Emergency Response
Director, Office of Federal Facilities Enforcement, Office of Enforcement and Compliance
    Assurance
Deputy Director, Office of Federal Facilities Enforcement, Office of Enforcement and
    Compliance Assurance
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-up Coordinators, Regions 1-10
Acting Inspector General




                                               32 

